No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY AND M.T.- PETITIONERS
VS.
SUPERIOR COURT OF SACRAMENTO, UDUAK INYANG ODUOK, JOHN
PATRICK WINN, OLUBUNMI OLAEDE AWONIYI, AND SHARIF ROLDAN
TARPIN - RESPONDENT(S)
PROOF OF SERVICE
do swear or declare that on this date,
lames Conerlv
L
August 23 , 2021 , as required by Supreme Court Rule 29 I have served the enclosed
PETITIONER’S PROOF OF TIMELY SERVICE OF MY REQUEST TO FILE MY PETITION FORA WRIT
OF CERTIORARI WITH SUPPLEMENTAL APPENDIX UNDER SEAL, on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to'each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Sharif Roldan Tarpin
6048 Riverside BL Unit A-13
Sacramento. CA 95831
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 23,2021

(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY AND M.T.- PETITIONERS
VS.
SUPERIOR COURT OF SACRAMENTO, UDUAK INYANG ODUOK, JOHN
PATRICK WINN, OLUBUNMI OLAIDE AWONIYI, AND SHARIF ROLDAN
TARPIN - RESPONDENT(S)

PROOF OF SERVICE
j do swear or declare that on this date,
lames Conerlv
I,
August 9A , 2021 , as required by Supreme Court Rule 29 I have served the enclosed
PETITIONER'S PROOF OF TIMELY SERVICE OF MY REQUEST TO FILE MY PETITION FOR A WRIT
OF CERTIORARI WITH SUPPLEMENTAL APPENDIX UNDER SEAL, on each party to the above
proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
John Patrick Winn
2860 Gateway Oaks Drive Suite 400
Sacramento. CA 95833
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 23k 2021

(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY AND M.T.-PETITIONERS
VS.
SUPERIOR COURT OF SACRAMENTO, UDUAK INYANG ODUOK, JOHN
PATRICK WINN, OLUBUNMI OLAIDE AWONIYI, AND SHARIF ROLDAN
TARPIN - RESPONDENT(S)

PROOF OF SERVICE
j do swear or declare that on this date,
James Conerlv
I,
August 73 , 2021 , as required by Supreme Court Rule 29 I have served the enclosed
PETITIONER'S PROOF OF TIMELY SERVICE OF MY REQUEST TO FILE MY PETITION FOR A WRIT
OF CERTIORARI WITH SUPPLEMENTAL APPENDIX UNDER SEAL, on each party to the above
proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Superior Court of Sacramento_________________
2860 Gateway Oaks Drive Suite 400____________
Sacramento. CA 95833
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 23>. 2021

(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY AND M.T.- PETITIONERS
VS.
SUPERIOR COURT OF SACRAMENTO, UDUAK INYANG ODUOK, JOHN
PATRICK WINN, OLUBUNMI OLAIDE AWONIYI, AND SHARIF ROLDAN
TARPIN - RESPONDENT(S)
PROOF OF SERVICE
do swear or declare that on this date,
James Conerlv
I,
August 73,2021 , as required by Supreme Court Rule 29 I have served the enclosed
PETITIONER’S PROOF OF TIMELY SERVICE OF MY REQUEST TO FILE MY PETITION FOR A WRIT
OF CERTIORARI WITH SUPPLEMENTAL APPENDIX UNDER SEAL, on each party to the above
proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Uduak Invang Oduok__________________________
2860 Gateway Oaks Drive Suite 400_____________
Sacramento. CA 95833_______________________
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August .23.2021

(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY AND M.T.- PETITIONERS
VS.
SUPERIOR COURT OF SACRAMENTO, UDUAK INYANG ODUOK, JOHN
PATRICK WINN, OLUBUNMI OLAIDE AWONIYI, AND SHARIF ROLDAN
TARPIN - RESPONDENT(S)
PROOF OF SERVICE
James Conerlv
j do swear or declare that on this date,
L
August 12> , 2021 , as required by Supreme Court Rule 29 I have served the enclosed
PETITIONER’S PROOF OF TIMELY SERVICE OF MY REQUEST TO FILE MY PETITION FOR A WRIT
OF CERTIORARI WITH SUPPLEMENTAL APPENDIX UNDER SEAL, on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Olubunmi Olaide Awonivi
2860 Gateway Oaks Drive Suite 400
Sacramento. CA 95833
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 23 2021

(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY AND M.T.- PETITIONERS
VS.
SUPERIOR COURT OF SACRAMENTO, UDUAK INYANG ODUOK, JOHN
PATRICK WINN, OLUBUNMIOLAIDE AWONIYI, AND SHARIF ROLDAN
TARPIN - RESPONDENT(S)

PROOF OF SERVICE
, do swear or declare that on this date,
lames Conerlv
I,
August 23.2021, as required by Supreme Court Rule 291 have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR A WRIT OF CERTIORARI,
MOTION FOR LEAVE TO FILE SUPPLEMENTAL APPENDIX, DERCLARATION OF PETITIONER,
CARINA CONERLY, on each party to the above proceeding or that party's counsel, and on every
other person required to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Sharif Roldan Taroin_______________________
6048 Riverside BL Unit A-13
Sacramento. CA 95831
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 23,2021

(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY AND M.T.- PETITIONERS
VS.
SUPERIOR COURT OF SACRAMENTO, UDUAK INYANG ODUOK, JOHN
PATRICK WINN, OLUBUNMI OLAIDE AWONIYI, AND SHARIF ROLDAN
TARPIN - RESPONDENT(S)
PROOF OF SERVICE
j do swear or declare that on this date,
fames Conerlv
I,
August 23,2021, as required by Supreme Court Rule 291 have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR A WRIT OF CERTIORARI,
MOTION FOR LEAVE TO FILE SUPPLEMENTAL APPENDIX, DERCLARATION OF PETITIONER,
CARINA CONERLY, on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
John Patrick Winn
2860 Gateway Oaks Drive Suite 400
Sacramento. CA 95833
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 23.2021

(Srgnature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY AND M.T.- PETITIONERS
VS.
SUPERIOR COURT OF SACRAMENTO, UDUAK INYANG ODUOK, JOHN
PATRICK WINN, OLUBUNMI OLAIDE AWONIYI, AND SHARIF ROLDAN
TARPIN - RESPONDENT(S)

PROOF OF SERVICE

James Conerly
do swear or declare that on this date,
I,
August 73 .2021, as required by Supreme Court Rule 291 have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR A WRIT OF CERTIORARI,
MOTION FOR LEAVE TO FILE SUPPLEMENTAL APPENDIX, DERCLARATION OF PETITIONER,
CARINA CONERLY, on each party to the above proceeding or that party's counsel, and on every
other person required to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Superior Court of Sacramento___________________
2860 Gateway Oaks Drive Suite 400
Sacramento. CA 95833
I declare under penalty of perjury that the foregoing is hue and correct.
Executed on

August 2ft. 2021

/s

(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY AND M.T.- PETITIONERS
VS.
SUPERIOR COURT OF SACRAMENTO, UDUAK INYANG ODUOK, JOHN
PATRICK WINN, OLUBUNMIOLAIDE AWONIYI, AND SHARIF ROLDAN
TARPIN - RESPONDENT(S)
PROOF OF SERVICE
j do swear or declare that on this date,
James Conerlv
h
August
. 2021, as required by Supreme Court Rule 291 have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERISPETITION FOR A WRIT OF CERTIORARI,
MOTION FOR LEAVE TO FILE SUPPLEMENTAL APPENDIX, DERCLARATION OF PETITIONER,
CARINA CONERLY, on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Uduak Invang Oduok
2860 Gateway Oaks Drive Suite 400
Sacramento. CA 95833
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Augusts. 2021

(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY AND M.T.- PETITIONERS
VS.
SUPERIOR COURT OF SACRAMENTO, UDUAK INYANG ODUOK, JOHN
PATRICK WINN, OLUBUNMIOLAIDE AWONIYI, AND SHARIF ROLDAN
TARPIN - RESPONDENT(S)
PROOF OF SERVICE
do swear or declare that on this date,
James Conerlv
I.
August
, 2021, as required by Supreme Court Rule 291 have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS; PETITION FOR A WRIT OF CERTIORARI,
MOTION FOR LEAVE TO FILE SUPPLEMENTAL APPENDIX, DERCLARATION OF PETITIONER,
CARINA CONERLY, on each party to the above proceeding or that party's counsel, and on every
other person required to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Olubunmi Olaide Awonivi
2860 Gateway Oaks Drive Suite 400
Sacramento. CA 95833
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

AueustiK. 2021

(Signature)

